IN THE SUPREME COURT OF THE UNITED STATES
No. ________
SHANIKA DAY AND HARVEY MORGAN,
PETITIONERS,
V.
FRANKLIN WOOTEN AND RANDALL DENNY,
RESPONDENTS.
PROOF OF SERVICE
The undersigned, counsel for the Petitioners, Shanika Day and Harvey
Morgan, hereby certifies that on October 9, 2020, I electronically filed the foregoing
Petition for Writ of Certiorari with the Clerk of Court for the United States
Supreme Court, and that a true and accurate copy was served upon the following
counsel of record, through First Class U.S. Mail:
Dated: October 9, 2020

/s/ Nathaniel Lee
Nathaniel Lee, Esq.
LEE, COSSELL & CROWLEY, LLP
Faith E. Alvarez, Esq.

Counsel of Record

LEE, COSSELL & CROWLEY, LLP
151 N. Delaware Street, Ste. 1500
Indianapolis, Indiana 46204
Phone: (317) 631-5151
Fax: (317) 624-4561
nlee@nleelaw.com
falvarez@nleelaw.com

Attorneys for Petitioners

